1
No.
IN THE
SUPREME COURT OF THE UNITED
STATES
♦
A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners
-V.Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
Defendants-Respondents
♦
On Writ of Certiorari
To the U.S. Court of Appeals for the 2nd
Circuit
♦
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that the PETITION FOR A WRIT OF CERTIORARI
in the above case complies with the typeface

2

requirements of Supreme Court Rule 33.1(b), being
prepared in Century Schoolbook 12 point for the text
and 10 point for the footnotes, and the brief contains
8924 words excluding those parts of the document
that are exempted by Supreme Court Rule 33.1(d).
Respectfully Submitted on November 2, 2020

By:

R0i3ERT JAMES UPTON
NOTARY PUBLIC, STATE OF NEW YORK
Registration No. 01UP6377377
Qualified in Saratoga County
Commission Expircs July 9, 2022

o z /-6o --evo

